Audit of USAID/Guatemala’s Justice Program

Audit Report No. 1-520-04-011-P

September 9, 2004




             San Salvador, El Salvador
September 9, 2004


MEMORANDUM
FOR:           USAID/Guatemala Director, Glenn E. Anders

FROM:          Inspector General/San Salvador, Steven H. Bernstein “/s/”

SUBJECT:       Audit of USAID/Guatemala’s Justice Program (Report No.
               1-520-04-011-P)

This memorandum transmits our final report on the subject audit. In finalizing this
report, we considered your comments on our draft report and have included your
response in Appendix II.

The report includes two recommendations as follows: that USAID/Guatemala (1)
include baselines and targets for justice program indicators defined in the
Performance Management Plan and (2) require the next justice program contractor
to use the same definitions and timeframes in workplans, proposals, statements of
work, and performance reports to facilitate the monitoring of activities proposed
under the different planning documents. Based on your comments and the
documentation you provided, final action has been taken, and both recommendations
are closed upon issuance of this report.

Once again, I appreciate the cooperation and courtesy extended to my staff during
the audit.




                                                                                 1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                     5
Contents
           Background                                                              5

           Audit Objective                                                         6

           Audit Finding                                                           6

                  Were USAID/Guatemala’s justice program activities on schedule
                  to achieve planned outputs and sustainable results?              6

                           Planned Output Levels were not Established in the
                           Performance Monitoring Plan                            10

           Evaluation of Management Comments                                      15

           Appendix I – Scope and Methodology                                     17

           Appendix II – Management Comments                                      19




                                                                                       3
This page intentionally left blank.




                                      4
Summary of   As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/Guatemala’s justice
             program activities were on schedule to achieve planned outputs and sustainable
             results (page 6).

             We were unable to fully answer the audit objective because USAID/Guatemala
             did not establish performance indicator baselines and intermediate targets to
             measure the progress of justice program activities. As a result, this report is
             limited because we cannot state positively that USAID/Guatemala’s justice
             program activities were on schedule to achieve planned outputs and sustainable
             results (page 6).

             Based on the information provided and the tests performed, the following problem
             area came to our attention. USAID/Guatemala’s 2002 and 2004 Democracy
             Strategic Objective Performance Monitoring Plans identified 26 separate
             indicators for measuring progress of justice program activities. However, only
             two of these indicators had established baselines, intermediate targeted output
             levels, and actual reported outputs or results for measuring progress. These two
             indicators did not provide enough insight into the Mission’s justice program
             activities to determine whether the program as a whole was on schedule.
             Consequently, we could not determine whether the Mission’s justice program
             activities were on schedule to achieve planned outputs and sustainable results
             (page 7).

             Therefore, we recommended that USAID/Guatemala:

                1. include baselines and targets for justice program indicators defined in the
                   Performance Management Plan and

                2. require the next justice program contractor to use the same definitions and
                   timeframes in workplans, proposals, statements of work, and performance
                   reports to facilitate the monitoring of activities proposed under the different
                   planning documents (page 15).

             USAID/Guatemala agreed with the findings and recommendations presented in
             this report and took appropriate corrective action. Accordingly, final action has
             been taken, and both recommendations are closed upon issuance of this report
             (page 15).



Background   Guatemala has suffered more than 36 years of internal conflict, which formally
             ended with the signing of the Peace Accords in December 1996. Guatemala is
             now in its seventh year of implementing the Accords, which provide the
             framework for transforming Guatemala into a more participatory, pluralistic and


                                                                                                5
             equitable society. To aid in this transformation, USAID/Guatemala was working
             toward a more effective and responsive criminal justice system through increased
             functional integration among key actors, streamlined and improved transparency,
             efficiency of justice administration, and improved legal education. Current
             strategic plans for the democracy and peace accord support programs end with
             fiscal year 2003 funding. Funding for fiscal year 2004 will not be sought for the
             peace accord programs; however, at the time of our audit, new regional
             democracy program activities for Central America and Mexico were being
             developed for years 2003 – 2008. The justice program had been moved into the
             Mission’s democracy strategic objective which will terminate at the end of the
             2004 fiscal year and will then become a part of the new democracy regional
             strategy. USAID/Guatemala was developing this strategy in conjunction with
             other missions in Central America and Mexico.

             In May 1999, USAID/Guatemala signed a contract with Checchi and Company
             Consulting to implement justice program activities. The planned result of these
             activities would be a more effective and responsive criminal justice system in
             Guatemala. The program was divided into two phases:

                1. Phase I, for $7.9 million, ended September 30, 2002.

                2. Phase II, for $3.6 million, ends September 30, 2004.

             The Mission’s financial reports disclosed obligations of $11.5 million and
             disbursements of $9.6 million through December 31, 2003.



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following question:

                •   Were USAID/Guatemala’s justice program activities on schedule to
                    achieve planned outputs and sustainable results?

             Appendix I contains a discussion of the audit's scope and methodology.



Audit        We were unable to fully answer the audit objective because USAID/Guatemala
Findings     did not establish performance indicator baselines and intermediate targets to
             measure its justice program activity progress.

             In order to fully answer the audit objective, the following performance indicator
             information would have been necessary as of the date of our audit scope
             (December 31, 2003):

                •   Target amounts for planned outputs and sustainable results


                                                                                            6
      •   Target dates for planned outputs and sustainable results

      •   Attained outputs and achieved sustainable results as of the target date
          identified above

Because USAID/Guatemala did not supply this information for 24 of 26
performance indicators, we could not state positively that USAID/Guatemala’s
justice program activities were on schedule to achieve planned outputs and
sustainable results. However, this did not preclude us from reporting on a
problem area that came to our attention.1

As discussed above, we could not fully answer the audit objective. What follows
is (1) a discussion of the justice program and (2) a description of what the justice
program had reportedly achieved for two indicators.

Description of the Justice Program - The establishment of justice centers
throughout Guatemala was the first of four general tasks under
USAID/Guatemala’s justice program. The other three tasks were (1) institutional
strengthening, (2) legal education reform, and (3) alternative dispute and conflict
resolution. These four tasks contributed to the overall justice program goal of
creating a more effective and responsive criminal justice system in Guatemala.

The justice center, under the first general task, was a methodology, rather than a
building or physical location. The justice center was a means to improve the
coordination among parties involved in the criminal justice process. These parties
included prosecutors, police chiefs, public defenders, and judges of the Courts of
First Instance (the judges responsible for controlling investigations and
scheduling cases for trial). Interaction and coordination among the parties were
intended to expedite cases through the criminal justice system. For example,
improved coordination should have assisted police in completing criminal reports
properly and efficiently or fulfilling the requirements for issuing arrest warrants.

To meet its goal of coordination, the ideal, model justice center consisted of unit
coordinators and executive committees.

Key to the success of the justice center was the unit coordinator, who was
responsible for coordinating meetings among the various actors in the criminal
justice system. Whether these actors met and agreed to coordinate efforts was
largely the result of how successfully the unit coordinator could persuade them to
do so.

The unit coordinator was a salaried position at the justice centers. Salaries were
financed by Checchi and Company Consulting (Checchi), the Mission’s sole

1
    A complete description of the essential information that USAID/Guatemala did not develop is
    provided in the following section.


                                                                                             7
contractor for implementing justice program activities. Funding for the unit
coordinator positions will end when the strategy and contract end on September
30, 2004. Of the 16 justice center coordinators, the Mission reported that two had
found alternative sources of funding from the Inter-American Development Bank.
For the remaining 14 justice centers, this funding had yet to be located although
the Mission and Checchi were seeking other options for financing. Without such
funding, the justice centers might not be sustainable.

The executive committee was composed of justice sector operators and civil
society organizations operating within the justice center’s community. The
committees were typically comprised of non-government organizations, advocacy
groups, and lawyer associations, and differed from the unit coordinator groups in
that the individual members were not government officials. The committees were
organized around various themes, such as domestic violence or the rights of the
indigenous population. The Mission provided funding, as well as tools for
achieving sustainability, for the initial executive committee activities. The
Mission reported that executive committee activities obtained an average of 61
percent of funding from other sources for the fiscal year ending September 30,
2003, although that percentage was based on reporting data from only 10 of the
16 centers (reporting data for all justice program activities will be discussed in
further detail below). These committees will also need to find their own funding
sources to be fully sustainable after September 30, 2004.

The second general task of justice program activities was institutional
strengthening. This task included building effective criminal justice institutions
in Guatemala. One such institution where reengineering activities were being
piloted was the Guatemalan Public Ministry (the Public Ministry is similar to a
public defender’s office in the United States). Other activities included
strengthening the judiciary to create a model Court of First Instance and
expanding implementation of a case-tracking management information system for
trial courts.

The third general task of justice program activities was legal education reform.
These activities took place at national law schools such as the University of San
Carlos.     Activities included curriculum reform, improved financial and
management information systems at law schools, improved legal education
standards, and improved standards for bar exams.

The fourth general task was the establishment and expansion of community
mediation centers. Activities included promoting resolution of appropriate cases
through non-formal channels of dispute resolution, including indigenous
customary law. By promoting non-formal channels, the Guatemalan judiciary
system would be able to devote more resources to complex criminal cases. This
activity involved hiring mediators for the purpose of resolving disputes. Funding
for these mediators ended on December 31, 2003. Alternative funding sources
had yet to be located, but the Mission and Checchi were actively seeking other
sources.


                                                                                8
As mentioned previously, such alternative financing is necessary for justice
program activities to achieve sustainability. The Mission and Checchi were
reportedly pursuing alternative financing options.             The Inter-American
Development Bank, for example, was considering a loan to the Government of
Guatemala to finance the remaining justice centers in addition to the two already
being financed. The Swedish Government’s development agency also expressed
interest. Draft legislation had been prepared for the Guatemalan legislature to
finance the justice centers as well. Another possibility is filling the justice center
unit coordinator positions with rotating volunteers. Given these efforts and given
that the Mission’s contract allows Checchi until September 30, 2004, to complete
its tasks, we are not making a recommendation regarding alternative financing.

Justice Program Achievements for Two Indicators - USAID/Guatemala, in its
2002 and 2004 Performance Monitoring Plans for its Democracy and Governance
Strategic Objective, developed 26 performance indicators to measure the progress
of its justice program activities. However, of these 26 indicators, only two had
established targeted output levels, baselines, and actual reported results. Those
two outputs were (1) the number of justice centers open and operating and (2) the
average number of months required to process a case through the Guatemalan
criminal justice system.

The first output, according to the Mission, was achieved. The Mission had
planned to open 16 justice centers throughout Guatemala by December 31, 2003,
and Mission reports indicated that this had been accomplished by that date.
Nevertheless, the opening of justice centers was not a measure of the work quality
of the justice program activities, Mission officials explained.

The Mission determined that the second output, a more qualitative indicator, had
not been achieved. Case processing time was found to be increasing, rather than
decreasing. The Mission determined that case processing time was too broadly
defined and proposed redefining the measure to more accurately reflect the work
of the justice program.

Thus, with just one non-qualitative indicator with a measured output, we did not
consider it appropriate to answer our audit objective, which applied to all justice
program activities.




                                                                                    9
Planned Output Levels were not Established
in the Performance Monitoring Plan

Summary: USAID/Guatemala did not establish in its Performance Monitoring
Plans (PMPs) planned levels of outputs and sustainable results against which to
measure actual outputs and results, as required by the Automated Directives
System. The project team did not develop the required items because it did not
view the PMP as a managerial or tracking tool. As a result, Mission management
could not know whether their justice program activities were having the desired
effects or if activities needed to be adjusted in order to achieve the desired effects.

The exercise of establishing baselines and planned targeted outputs begins with
the PMP, the initial strategic objective level document in which Missions should
identify indicators and establish baselines and planned outputs and results.

USAID/Guatemala prepared a PMP for its strategic objective, “More Inclusive
and Responsive Democracy,” which covered justice program activities and was
dated June 24, 2002. In this PMP, the Mission identified 18 results-level
indicators related to its justice program activities. As explained previously, we
were able to identify two indicators with established baselines and targeted
outputs: (1) the number of justice centers open and operating and (2) the average
number of months required to process a case through the Guatemalan criminal
justice system.

The Mission prepared a second PMP dated February 10, 2004, also covering
justice activities. Many of the indicators defined in the 2002 PMP were not
included in this PMP. The 2004 PMP defined 12 indicators for justice program
activities. In both PMPs, the indicators were missing information on baselines,
targets, or reported results.

The following table consolidates information from the Mission’s 2002 and 2004
PMPs and reported outputs and results from the 2003 Performance Indicator
Reference Sheets (these sheets are completed annually by operating units to
record and update all relevant specifications and details for a particular indicator).

Table 1 - Justice program indicators from USAID/Guatemala's 2002 and
2004 Performance Monitoring Plans, Democracy and Governance Strategic
Objective

 No.       Indicator        Included   Baseline?     2003         2003      Percent
                             in 2002               Targeted     Reported    of target
                             and/or                 output/      output/    achieved
                               2004                 result?      result?
                              PMP?
 1     Number of justice   Both        Yes         Yes         Yes          100%
       centers open and
       operating




                                                                                    10
Table 1 - Justice program indicators from USAID/Guatemala's 2002 and
2004 Performance Monitoring Plans, Democracy and Governance Strategic
Objective

 No.       Indicator          Included   Baseline?     2003       2003     Percent
                               in 2002               Targeted   Reported   of target
                               and/or                 output/    output/   achieved
                                 2004                 result?    result?
                                PMP?
2      Average case          Both        Yes         Yes        Yes        0%
       processing time
3      Number of             2002        Yes         No         No         Unable to
       community                                                           determine
       mediation centers
       (CMCs) operating
4      Number and            2002        Yes         No         No         Unable to
       percentage of total                                                 determine
       cases resolved
       through CMCs
5      Number of cases       2002        No          No         No         Unable to
       assisted by trained                                                 determine
       interpreters in
       justice centers
6      Number of             2002        Yes         No         No         Unable to
       students and                                                        determine
       percentage of
       implementation in
       Indigenous Law
       Masters program
7      Number of law         Both        Yes         No         No         Unable to
       students involved                                                   determine
       in
       internships/practi-
       cal skills program
8      Women’s groups        2002        Yes         No         No         Unable to
       who know their                                                      determine
       rights
9      Justice sector        2002        Yes         No         No         Unable to
       personnel who                                                       determine
       understand/apply
       women’s rights
10     Gender                2002        Yes         No         No         Unable to
       considerations                                                      determine
       included in law
       school curricula
11     Increased student     2002        Yes         No         No         Unable to
       access to modern                                                    determine
       research tools




                                                                                   11
Table 1 - Justice program indicators from USAID/Guatemala's 2002 and
2004 Performance Monitoring Plans, Democracy and Governance Strategic
Objective

 No.       Indicator         Included   Baseline?     2003       2003     Percent
                              in 2002               Targeted   Reported   of target
                              and/or                 output/    output/   achieved
                                2004                 result?    result?
                               PMP?
12     Implementation of    Both        Yes         No         Yes        Unable to
       case management                                                    determine
       system                                                             without
                                                                          target

13     Criminal cases       2002        Yes         No         No         Unable to
       resolved without                                                   determine
       trial
14     Implementation of    2002        No          No         No         Unable to
       procedures to                                                      determine
       assist women

15     Networks to assist   2002        No          No         No         Unable to
       female violent                                                     determine
       crime victims
16     Number of            2002        Yes         No         No         Unable to
       detainees without                                                  determine
       convictions
17     Number of            2002        Yes         No         No         Unable to
       indigent                                                           determine
       defendants
       represented by
       Public Ministry
18     Greater number of    2002        Yes         No         No         Unable to
       appeals and writs                                                  determine
       brought by Public
       Ministry
19     Number of            2004        No          No         Yes        Unable to
       agreements                                                         determine
       adopted by justice                                                 without
       center                                                             target
       coordinating units
20     Percent of Exec.     2004        No          No         Yes        Unable to
       Cmte. activities                                                   determine
       funded by outside                                                  without
       sources                                                            target
21     Local crime-         2004        Yes         Yes        Data was   Unable to
       prevention                                              not com-   determine
       strategies                                              plete      without
       developed                                                          complete
                                                                          data




                                                                                  12
Table 1 - Justice program indicators from USAID/Guatemala's 2002 and
2004 Performance Monitoring Plans, Democracy and Governance Strategic
Objective

 No.       Indicator         Included   Baseline?     2003       2003     Percent
                              in 2002               Targeted   Reported   of target
                              and/or                 output/    output/   achieved
                                2004                 result?    result?
                               PMP?
 22    Number of            2004        No          No         Yes        Unable to
       accusation writs                                                   determine
       submitted to bring                                                 without
       cases to trial                                                     target


 23    Percent of justice   2004        Yes         No         Yes        Unable to
       center coordinator                                                 determine
       salaries funded by                                                 without
       outside sources                                                    target
 24    Number of cases      2004        No          No         Yes        Unable to
       tried under                                                        determine
       domestic violence                                                  without
       laws                                                               target
 25    Number of cases      2004        No          No         Yes        Unable to
       attended by Office                                                 determine
       for Victim’s                                                       without
       Assistance                                                         target
 26    Sustainability of    2004        No          No         No         Unable to
       mediation centers                                                  determine

Of the 26 indicators listed above, only numbers 1 and 2 had established baselines,
targeted outputs, and reported actual outputs and results.

The first PMP covering justice program activities was completed in June 2002—
three years after the Mission signed its contract with Checchi, the justice program
implementer, in May 1999. The PMP is intended to be a planning tool and should
be developed prior to the commencement of activities. The current Cognizant
Technical Officer (CTO) on the Checchi contract, who had only been CTO since
February 2004, felt that the PMP and Portfolio Review (the tool used to measure
actual outputs and results against targeted outputs and results) were reporting
mechanisms for USAID/Washington and external parties, rather than useful
managerial tools (the CTO is the individual who performs functions on a given
contract that are designated by the Contracting or Agreement Officer). A Checchi
official made a similar statement. This official said that completing the 12
Performance Indicator Reference Sheets was an exercise Checchi conducted only
because it was required by USAID/Washington. Further, a Checchi official stated
that, from the start of the program, the first CTO never adequately explained what
types of reporting information the Mission needed or wanted in order to measure
justice program progress (three CTOs had been assigned to Checchi’s contract
since May 1999). As a result, Checchi officials were somewhat confused about



                                                                                  13
what sort of information the Mission had expected over the course of their
program.

This confusion was evident in, and magnified through, Checchi’s proposals,
statements of work, annual workplans, and quarterly reports. These documents
identified outputs as benchmarks, expected results, and targets. But each of these
documents defined these outputs inconsistently. For example, under the first
general task, Justice Center Expansion, Checchi’s original proposal (dated April
20, 1999) listed an increase of 20 percent in populations served by justice centers
as one output. The annual workplan for 2003, however, did not include this as an
output; instead it identified others, such as a decrease in the number of lynchings
under an undefined 2002 baseline. Checchi’s quarterly report for the quarter
ending December 31, 2003, did not report on either of these outputs. The
quarterly report was prepared as a narrative, describing activities that took place
under each task, such as the number of meetings and topics discussed by unit
coordinators and executive committees. Ultimately, Checchi’s quarterly reports
were never prepared in a manner that would report on specific outputs and results
identified in the proposals, statements of work, and annual workplans.

A well-developed PMP, if used properly, can help eliminate theses
inconsistencies and assist communications between Mission and contractor
officials. Automated Directives System (ADS) 203.3.3.1 states that at least one
performance indicator is required to measure progress toward each Intermediate
Result and that each indicator must include baseline levels and targets to be
achieved over the life of the strategic objective. Operating units should have as
many indicators in their Performance Management Plan2 as are necessary and cost
effective for management and reporting purposes.

ADS 203.3.4.5 also states that management should plan ahead for the analysis and
interpretation of actual performance data against the performance targets. The
Handbook of Democracy and Governance Program Indicators states that one of
the PMP’s purposes is to enable comparable performance data to be collected
over time, even in the event of staff turnover (a necessity when CTOs change
frequently). The preamble to USAID/Guatemala’s 2002 Democracy Strategic
Objective PMP stated that the Plan should be a useful tool for management and
organizational learning—not simply a mechanism to fulfill USAID/Washington
reporting requirements.

Without an effective system for analyzing and interpreting performance data
against targeted outputs and results, Mission management cannot know whether
the program is having the desired effect or whether the activities need to be
adjusted in order to achieve the results.




2
    The Performance Monitoring Plan was changed to Performance Management Plan in 2003 per
    ADS 203.


                                                                                       14
                Although Checchi’s contract ends September 30, 2004, the Mission planned to
                continue justice program activities as part of its new Regional Strategy for Central
                America and Mexico from 2003 through 2008.

                In light of these circumstances, we are making the following recommendations:

                       Recommendation       No.       1:     We    recommend       that
                       USAID/Guatemala include in its next Performance
                       Management Plan for Democracy and Governance: (a) a
                       manageable number of planned outputs and sustainable results
                       for justice program activities; (b) a methodology for generating
                       baseline data and targets for measuring progress towards
                       accomplishing planned outputs and sustainable results; and (c)
                       language requiring actual outputs and sustainable results be
                       measured against these established baselines and targets.

                       Recommendation        No.    2:     We     recommend       that
                       USAID/Guatemala (a) require the next justice program
                       contractor’s workplans, proposals, and statements of work to
                       use the same definitions and timeframes, and to be sufficiently
                       clear and specific as to determine how and by when planned
                       outputs and sustainable results will be achieved; and (b)
                       require the contractor to report progress for planned outputs
                       and sustainable results identified in its workplans, proposals,
                       and statements of work.



Evaluation of   USAID/Guatemala agreed with, and took steps to implement, the findings and
Management      recommendations presented in this report. For the first recommendation, the
                Mission defined indicators, units of measure, baselines, and targets for justice
Comments
                program activities in its Performance Monitoring Plan (PMP) for the upcoming
                Democracy Regional Strategic Objective for Central America and Mexico. For the
                second recommendation, the Mission placed language in the terms of reference for
                follow-on justice program activities clarifying that all contractor reporting shall be
                consistent with the indicators and benchmarks established in the contract and PMP.
                Accordingly, final action has been taken and both recommendations are closed upon
                issuance of this report.

                USAID/Guatemala also made some comments regarding the methodology of our
                audit. We appreciate such comments and will give them due consideration in
                planning and performing future audits.

                Mission comments to this report are included in Appendix II, with the exception
                of Annex 1 (the Activity Design Document) and Annex 2 (the Request for
                Quotations for the Rule of Law Program for 2004 – 2009). Based upon the
                Mission’s comments and our analysis of these documents, we determined that


                                                                                                   15
both recommendations are closed. Annex 3 is included in its entirety in Appendix
II. Annex 3 is additional data describing justice program outputs and results
which the Mission gathered and collated in response to this audit report.




                                                                             16
                                                                                    Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit in accordance
              with generally accepted government auditing standards. Although we followed
              these standards, we could not fully answer the audit objective.
              USAID/Guatemala’s management did not completely establish baseline data and
              targeted outputs levels against which to measure actual outputs and results for 24
              of its 26 justice program indicators. Without this information, the Mission could
              not demonstrate that its justice program activities were on schedule to achieve
              planned outputs and sustainable results. In order for us to fully answer the audit
              objective, we would have needed to identify what USAID/Guatemala’s planned
              and actual outputs and sustainable results were as of the date of our audit scope,
              December 31, 2003. The fact that management had not prepared this information
              constituted a limitation on the scope of the audit.

              In planning and performing the audit, we assessed the effectiveness of
              management controls related to measuring progress of justice program activities.
              The management controls identified included management’s preparation of its
              Performance Monitoring Plans; the Mission’s annual self-assessment of
              management controls through its annual Federal Managers Financial Integrity Act
              review; justice program officials’ reports from field visits; and data quality
              assessments.

              The justice program activities were implemented by one contractor, Checchi and
              Company Consulting (Checchi). We conducted the audit at the offices of
              USAID/Guatemala, Checchi, and two justice centers located in Public Ministry
              buildings operated by the Guatemalan Government. At these offices, we
              interviewed Mission and implementer officials and reviewed documents such as
              contracts, statements of work, annual workplans, and performance reports.

              According to USAID/Guatemala, the $11.5 million awarded for justice program
              activities consisted of $7.9 million for Phase I and $3.6 million for Phase II.

              Audit fieldwork was conducted from April 20 through June 9, 2004.

              Methodology

              To determine whether USAID/Guatemala’s justice program activities were on
              schedule to achieve planned outputs and sustainable results, we reviewed the
              Mission’s Performance Monitoring Plans, Performance Indicator Reference
              Sheets, Annual Reports, and annual Portfolio Reviews.

              To determine whether justice program activities were on schedule, we had
              planned to verify reported actual outputs and sustainable results which had met or


                                                                                             17
exceeded planned levels of outputs and results as of the date of our audit scope.
However, since the Mission had not established more than two indicators with
planned levels of outputs and results as of the date of our audit scope, we could
not answer the audit objective and therefore did not verify actual reported outputs
and results.

To determine the significance of our findings, we had planned to consider the
following as of December 31, 2003:

   •   Had at least 90 percent of the outputs and sustainable results achieved at
       least 90 percent of their planned targeted levels, we would have answered
       the objective positively.

   •   Had 80 to 89 percent of the outputs and sustainable results achieved at
       least 90 percent of their planned targeted levels, we would have answered
       the objective positively but with a qualification.

   •   Had less than 80 percent of the outputs and sustainable results achieved at
       least 90 percent of their planned targeted levels, we would have answered
       the objective negatively.




                                                                                18
                                                                                           Appendix II


Management
Comments

DATE:             August 9, 2004

REPLY TO
ATTN OF:          Glenn Anders, USAID/G-CAP DIR

SUBJECT:          Comments to the Draft Report of the Audit of USAID/Guatemala's Justice Program

TO:               Steven Bernstein, RIG/SS


USAID/Guatemala appreciates the opportunity to respond to the draft audit report. While we accept the
audit recommendations, we also believe that the audit objective could have been achieved through a
more comprehensive integrated methodology and greater interaction with USAID/Guatemala staff. As
explained below, we have various means of determining whether our Justice Program is on track to meet
planned results and we are confident of our oversight of this program. In our view, most of the key
objectives of the Justice Program have been met or will be met by the completion of the program this
year. Some objectives will not be fully met, but we have made important progress and laid important
groundwork for achieving those objectives in the near future. In some areas, our expectations have
been exceeded.

Audit recommendations are accepted, have been implemented, and are requested to be considered
closed upon issuance of the final audit report - The RIG Audit identified inconsistencies in our use of
indicators, targets, and benchmarks in project documentation and the Performance Monitoring Plans
(PMP) for the Justice Program. We agree that we could have done a better job of integrating the
performance indicators in contracts and other project documentation with the PMP and accept the audit
recommendations. We could also have done a better job of documenting why changes in indicators and
targets were made. We have already addressed the first recommendation in the Performance
Monitoring Plan included in the approved SO-1 Activity Design Document (See Annex 1 page 19). We
have also addressed the second recommendation by placing language in the terms of reference for our
follow-on justice program activities that will clarify that all contractor reporting should be consistent
with the indicators and benchmarks established in the contract and PMP (See Attachment 1 to RFQ No.
520-Q-04-054 for the Rule of Law Program 2004-2009 under the new Strategy - Annex 2). Therefore,
on this basis, we request RIG/SS concurrence with our management decision and closure of these
recommendations upon issuance of the final audit report.

Information is available to achieve the Audit objective - Despite the fact that some performance
information was not readily available in our formal documentation, much of that information is available
and could have been used by the Audit Team to achieve the audit objective. For example, though some
baseline data was not included in the latest draft of the PMP, in many cases the baseline information
could be obtained and other data is available to compare with the end-of-project targets. We have


                                                                                                      19
gathered some of this data to update the chart presented in the draft audit report (See Annex 3). We
were surprised that the audit team did not ask us to work together with them to develop the information
needed for them to achieve the audit objective; our contact with the team was minimal, primarily related
to providing documents.

Available information suggests the Justice Program is on track to achieve key results -. Despite
the inconsistencies between contract documentation and our Performance Monitoring Plan (PMP), we
have a fairly clear sense of our progress toward achieving expected results under our Justice Program.
The audit methodology and draft Audit Report focus very narrowly on our formal reporting on
indicators for 2003 in relation to targets. Some of the results targeted by the Justice Program were
achieved by the end of 2002 when the initial stage of the contract with Checchi was completed (e.g.
reform of the law school curriculum) – therefore we did not include some of these indicators in the PMP
update. When we exercised our option to extend the contract through September, 2004, some areas of
initial activity were no longer a central focus, though we generally included some follow-up activities
and a focus on sustainability. The PMP was revised to focus primarily in the areas of emphasis under
the contract extension, reduce the number of indicators used, and weed out indicators that we felt were
not useful or reliable. Since this contract extension was for less than two years, we did not specify
targets for 2003, relying on the targets established in the contract for this period. The PMP also
responded to the Mission Director’s request for some additional indicators to measure quality and
further discussion with Checchi regarding indicators that they intended to use internally for their
management purposes. We have gathered data available for what we see as the key indicators,
providing information on the areas prioritized under the current contract with Checchi to implement the
final years of the Justice Program3 (See Table 1 below). The data shows that we are generally on track
to achieve what we consider the key objectives, but there are some areas that will require further
attention in our follow-on activity.

     Table 1 – Key Justice Program indicators from USAID/Guatemala's 2002 and 2004 Performance Monitoring Plans, Democracy
                            and Governance Strategic Objective and the current Contract with Checchi, Inc.
            Indicator             In 2002, 2004 PMP        Baseline               2003                   2003             End-of-project       Current Achievement of
                                    and/or Contract                         Targeted output/        Actual output/          target or              planned results
                                                                                 result                 result             benchmark
    Number of justice centers     2002 and 2004       2 (1997)              16                     16                   16                     100%
    open and operating            PMP, Contract
    Average case processing       2002 and 2004       12.18 months (1999)   10 months (per         11.8 months          9 months where         17% of targeted reduction
    time                          PMP, Contract       14.15 months (2000)   Portfolio Review)                           oralization began      based on 1999 baseline,
                                                                                                                        prior to Phase II,     57% based on 2000
                                                                                                                        10 months where        baseline.
                                                                                                                        newly introduced
    Percent of justice center     2004                0 (2002)              No                     Yes                  All justice centers    The Instancia has agreed
    coordinator salaries funded                                                                                         sustainable            to finance recurrent costs
    by outside sources                                                                                                                         of Justice Centers once
                                                                                                                                               the legal basis is
                                                                                                                                               established and funds
                                                                                                                                               budgeted.
    Percent of Executive          2004                0 (2002)              50% (per Checchi       4 of the then 11     100%                   36% with more than 50%
    Commitee activities funded                                              scope of work)         fully operational                           outside funding, 6% with
    by outside sources                                                                             centers,                                    more than 40% outside
                                                                                                   achieved/surpass                            funding, 20% with 20-
                                                                                                   ed the 50% target                           30%., 13.3% with 10-
                                                                                                                                               20%
    Local crime- prevention       2004 and contract   0 (2002)              4 new anti -crime      Strategies           Activities initiated   100% of targeted centers
    strategies developed                                                    strategies with        developed in all 4   in 100% of the         with strategies
                                                                            activities initiated   justice centers      targeted Justice       elaborated; 75% of


3
     The RFP for the option period of the contract identified the expansion, improvement, and sustainability of justice centers
     and institutional strengthening of the Public Ministry as the areas of primary emphasis during this period.


                                                                                                                                                                     20
    Table 1 – Key Justice Program indicators from USAID/Guatemala's 2002 and 2004 Performance Monitoring Plans, Democracy
                           and Governance Strategic Objective and the current Contract with Checchi, Inc.
          Indicator             In 2002, 2004 PMP         Baseline                2003                 2003             End-of-project      Current Achievement of
                                  and/or Contract                          Targeted output/      Actual output/           target or             planned results
                                                                                 result               result             benchmark
                                                                           (per scope of       Activities initiated                         centers with activities
                                                                           work)               in 3 or 4 targeted.                          initiated
 MP reorganization plan         Contract            0 (2002)               Plan developed      Plan advanced          Plan completed        30% (estimated)
 developed and                                                             by March and        regarding              and implemented
 implemented                                                               implemented by      Fiscalías de
                                                                           December            sección, Fiscalías
                                                                                               de Distrito &
                                                                                               Unidad de
                                                                                               conciliación
 Sistema de turnos              Contract            0 (2002)               Sistem designed     Partial analysis       Plan implemented      50% (estimated)
 reviewed and improved                                                     by December         and proposal for
 systems designed                                                          2003                a plan
 Performance appraisal          Contract            0 (2002)               System              Partial proposal       System                30% (estimated)
 system for prosecutors and                                                revamped by July                           implemented
 other key staff revamped                                                  2003
 Evidence control and           Contract            2 (2002)               System in place     Completed in           System in place in    Guatemala: 100%
 management systems in                                                     in Guatemala City   September 2003         all Justice Centers   All Justice Centers by
 place in Guatemala City in                                                                                           by September          Dec 2003:
 all Justice Centers                                                                                                  2004                  8= 53% (not including
                                                                                                                                            Nebaj)
 Judges, public defenders       Contract            No                     All Justice         By Dec 2003, 13        All Justice           All Coordinating Units
 and prosecutors in all                                                    operators trained   JC had received        operators trained     have received training on
 target locations are trained                                              by Dec 2003         training in oral       by Dec 2003           oral procedures - 100%
 in pre trial oralization                                                                      procedures =
 procedures                                                                                    86%
 Oralization procedures are     Contract            0 (these are pilots)   No                  0                      4 pilots oralized     100% of 4 pilots currently
 piloted in four Guatemala                                                                                                                  conduct oral procedures
 City criminal courts
 Oralization procedures are     Contract            6 (2002)               No                  11                     15 (not including     73%
 being used in all target                                                                                             Nebaj)
 locations
 Sustainability of mediation    2004                0                      No                  By Dec 2003, 13        All mediation         As of July 2004, 14
 centers                                                                                       centers were still     centers are           centers are still
                                                                                               funded by JP           functioning without   functioning without
                                                                                                                      Justice Program       Justice Program funding
                                                                                                                      funding.


We suggest RIG modify its methodology for future program audits to supplement the reliance on
numeric indicators and targets with other sources of information - While we believe additional
information was available to help achieve the audit objective along the lines of the proposed
methodology, this methodology was fundamentally flawed, and should be revised for future program
audits for the following reasons:

•    Qualitative information and evaluation results not included - The RIG audit team could have
     used additional information from the GAO audit of the Justice Program and an “Impact Study” of
     democracy activities contracted by the USAID Office of Democracy and Governance, both
     conducted during 2002, to augment their work and help achieve the audit objective. More recent
     justice sector assessments carried out by other donors and MINUGUA, and the draft evaluation of
     Peace-funded activities also provide some objective evaluation of the Justice Centers and other
     aspects of the USAID Justice Program. Though the team carried out various interviews and field
     visits, which should have helped achieve the audit objective, the information obtained from those
     sources is not included in the audit report.

•    Conclusions based on targets may reflect poor targeting rather than performance – As stated in
     USAID’s Handbook of Democracy and Governance Program Indicators, “Setting targets for


                                                                                                                                                                      21
    democracy measures is very difficult. We know little at this point about probable rates of change and
    what factors affect those rates.” Much of the time we have no basis for determining reasonable
    targets and can only hazard a “best guess”. Often, any improvement from the status quo is good yet
    we are pushed to provide “false precision” by providing numerical targets. Sometimes we set high,
    maybe unrealistic, targets to spur our contractors and grantees to make their very best effort (and
    possibly even succeed) when even partial achievement would represent significant improvement.
    Democracy activities, including those focused on improving justice, frequently are affected by
    changes in key personnel, budgets, political currents, and unforeseen events that make setting targets
    even more of a guessing game. It is very easy to guess wrong and wildly over or underestimate the
    potential change that can occur. Sometimes intermediate targets really don’t make sense - for
    example, if we are successful in getting the “Instancia” to cover recurring justice center costs, all the
    existing centers will become sustainable at the same time and setting a target that half of them be
    sustainable midway through the time period would be inappropriate.

    Methodologies such as the one proposed for this audit place inordinate emphasis on unreliable
    targets and encourage us to play a “target game” that rewards low-balling and punishes setting
    ambitious targets. Basing an analysis of “success” or “failure” only on these targets can highlight
    how well or poorly the targets were set rather than whether performance standards were met. Using
    arbitrary percentages of targets with very different units of measure as a determinant of the degree of
    “success” can further distort the analysis. Analyzing indicators should be only a part of a more
    integrated and comprehensive approach to determining whether programs are “on track” to achieve
    planned results.

•   Indicators and targets in contracts and initial performance monitoring plans should change
    based on reality and experience – USAID’s guidance anticipates changes to indicators and targets
    as activities are implemented and better information becomes available. Many factors can determine
    whether indicators and targets are appropriate – changes in governments, key personnel, funding,
    etc. Early implementation provides better information about the pace of change and feasibility of
    meeting initially established targets. In reporting on indicators in the Annual Report, Missions are
    encouraged to adjust targets to realistic levels for the following year based on the current year’s
    experience. Sometimes the initial indicators and targets proposed in a contract require revision over
    time. Our revision of the PMP reflected the changes associated with a new phase of the program and
    a new contract – with changes in emphasis and focus.

•   Some indicators are more important than others – Within a given program some results are more
    important than others and reflect more significant development changes. The indicators associated
    with those results should carry more weight in determining the overall success of the program.
    Weighting each indicator equally, as proposed in the RIG methodology, could provide a distorted
    view of the degree to which the program is having impact.

We feel that if the RIG’s methodology would have been more integrated and comprehensive, it would
have made possible the achievement of the audit objective and allowed the RIG to identify the
significant achievements that have taken place under the program, clarify where further work needs to
be done, and help formulate recommendations that would make a substantive contribution to this work.
During the weeks of field work undertaken on this program audit, much of this information was
collected and could have been used to provide a more balanced audit report and more interaction on



                                                                                                          22
substantive issues and approaches with USAID/G-CAP’s Democracy Team would have also helped
provide valuable additional information and insight.
Based on the above and the information contained in Annexes 1 and 2 of this memorandum, we reiterate
our request for RIG/SS concurrence with our management decision and request closure of the two
recommendations upon issuance of the final audit report. We thank you in advance for considering the
inclusion in your final audit report of the detailed information contained in this response. This action
will help better disclose the successes of our justice program in Guatemala. Please do not hesitate in
asking for additional information related to the above requests. We thank you and your staff for your
understanding and cooperation.




                                                                                                     23
This page intentionally left blank.




                                      24
ANNEX 3




          25
Annex 1 - Justice program indicators from USAID/Guatemala's 2002 and 2004 Performance
Monitoring Plans, Democracy and Governance Strategic Objective and the current Contract
with Checchi, Inc.
No.         Indicator           In 2002, 2004 PMP       Baseline                 2003                    2003                  End-of-project              Current
                                  and/or Contract                          Targeted output/         Actual output/               target or             Achievement of
                                                                                result                  result                  benchmark              planned results

1     Number of justice         2002 and 2004       2 (1997)              16                      16                      16                        100%
      centers open and          PMP, Contract
      operating
2     Average case              2002 and 2004       12.18 months          10 months (per          11.8 months            9 months where             17% of targeted
      processing time           PMP, Contract       (1999)                Portfolio Review)                              oralization began          reduction based on
                                                    14.15 months                                                         prior to Phase II,         1999 baseline, 57%
                                                    (2000)                                                               10 months where            based on 2000
                                                                                                                         newly introduced           baseline.
3     Number of community       2002                6 (2001)              2002 target: 15 No      16 as of 2002          15                         107%
      mediation centers                                                   further targets
      (CMCs) operating                                                    established.
4     Number and                2002                696 cases             No                      1440 cases, no         No target beyond           106.9% increase in
      percentage of total                           58.33% mediated                               information on %       2002 established           cases.
      cases resolved                                (2002)                                        mediated
      through CMCs
5     Number of cases           2002                Solid data for this indicator was difficult to obtain and the indicator was dropped for Phase II of the program.
      assisted by trained
      interpreters in justice
      centers
6     Number of students        2002                Number      No                        Number of students:        Indigenous law             Percentage of
      and percentage of                             of                                    25                         program operating          implementation is 100%
      implementation in                             students                              Percentage of
      Indigenous Law                                :0                                    implementation:
      Masters program                               Percent                               100% (2002)
                                                    age of
                                                    impleme
                                                    ntation:
                                                    0
                                                    (2000)
7     Number of law             2002 and 2004       0 (2000)    No                        227 students               Increased number of        Internship program
      students involved in      PMP, Contract                                                                        law students               continues to operate with
      internships/ practical                                                                                         involved in                an increasing number of
      skills program                                                                                                 internships                students
8     Women’s groups who        2002                24%
      know their rights                             (2002)
9     Justice sector            2002                73%
      personnel who                                 have        It was difficult to produce solid data for these indicators at a reasonable cost. These indicators were
      understand/apply                              knowled     dropped for Phase II
      women’s rights                                ge; 16%
                                                    apply
                                                    the law
10    Gender                    2002
                                                    The activities regarding this indicator were to take the shape of a special course (diplomado) that due to budget
      considerations
                                                    constrains was not implemented . For the same reason the activities regarding this indicator were not included in
      included in law school
                                                    Phase II.
      curricula
11    Increased student         2002                0 (2001)    A computer laboratory was open to student use in USAC in 2002. No               A computer lab provides
      access to modern                                          activities regarding this indicator were included in Phase II.                  access for law students
      research tools
12    Implementation of         Both                0           No                        11                         16 (including Nebaj        68.5 of final 2004 target
      case management                                                                                                CAJ)                       reached:
      system
13    Criminal cases            2002                4896        No                        8074 in 2002               No final target            65% increase over
      resolved without trial                        (1998)                                                                                      baseline
14    Implementation of         2002
      procedures to assist                          There was no realistic base to establish a target for implementation of procedures to assist women. However
      women                                         Checchi did report in its 17th Quarterly Report (July-September 2003, pages 69-70) impressive achievements in
15    Networks to assist        2002                the development of a network for victims services, that include more than 400 organizations with various areas of
      female violent crime                          focus            : legal, medical, social, and psychological. All of them assist victims of crime, including women.
      victims




                                                                                                                                                                            26
Annex 1 - Justice program indicators from USAID/Guatemala's 2002 and 2004 Performance
Monitoring Plans, Democracy and Governance Strategic Objective and the current Contract
with Checchi, Inc.
No.         Indicator         In 2002, 2004 PMP        Baseline               2003                  2003                End-of-project                Current
                                and/or Contract                         Targeted output/       Actual output/             target or               Achievement of
                                                                             result                result                benchmark                planned results

16    Number of detainees     2002                5185 (63.3%)          No                    4335 (53.4%) in        No target beyond          Reduction of 9.9%
      without convictions                                                                     2002                   2002 established
17    Number of indigent      2002                17994 (1999)          No                    21409 (2001)           No target beyond          Increase of 18% over
      defendants                                                                                                     2002 established, no      baseline
      represented Public                                                                                             support to the IDPP
      Defense Institute                                                                                              was included in
                                                                                                                     Phase II.
18    Greater number of       2002                693 (appeals          No                    918 writs and          No target                 Increase of 32% over
      appeals and writs                           381; habeas                                 appeals (appeals       established               baseline in writs other
      brought by Public                           corpus 135;                                 437; habeas                                      than accusations.
      Ministry                                    review 39;                                  corpus 178;
                                                  annulment 12;                               review 32;
                                                  amparo 14; death                            annulment 34;
                                                  penalty                                     amparo 49; other
                                                  commutation 3;                              188) (2001)
                                                  other 109)                                  790 (2003) writs
                                                  (2000)                                      of accusation
                                                  No baseline on
                                                  writs of
                                                  accusations
19    Number of               2004                0 (prior to justice   No                    260 agreements         No target                 260 agreements
      agreements adopted                          center creation)                            during 2003            established               adopted in 15 justice
      by justice center                                                                                                                        centers (apart from
      coordinating units                                                                                                                       Nebaj) concerning
                                                                                                                                               themes from criminal
                                                                                                                                               investigation to
                                                                                                                                               drafting of sentences.
20    Percent of Exec.        2004                0 (2002)              50% (per Checchi      4 of the then 11       100%                      36% with more than
      Cmte. activities                                                  scope of work)        fully operational                                50% outside funding
      funded by outside                                                                       centers, achieved                                6% with more than
      sources                                                                                 or surpassed the                                 40% outside funding
                                                                                              50% target                                       20% between 20%
                                                                                                                                               and 30%.
                                                                                                                                               13.3% between 10%
                                                                                                                                               and 20%
21    Local crime-            2004 and contract   0 (2002)              4 new anti -crime     Strategies             Activities initiated in   100% of targeted
      prevention strategies                                             strategies within 6   elaborated in all 4    100% of the targeted      centers with strategies
      developed                                                         months, activities    justice centers        Justice                   elaborated
                                                                        initiated within 1    Activities initiated
                                                                        year (per scope of    in 3 Justice                                     75% of centers with
                                                                        work)                 Centers of 4                                     activities initiated
                                                                                              targeted.
22    Number of accusation    2004                No                    No                    790 writs (2003)       No target
      writs submitted to                                                                                             established
      bring cases to trial

23    Percent of justice      2004                0 (2002)              No                    Yes                    All justice centers       The Instancia has
      center coordinator                                                                                             sustainable               agreed to finance
      salaries funded by                                                                                                                       recurrent costs of
      outside sources                                                                                                                          Justice Centers once
                                                                                                                                               the legal basis is
                                                                                                                                               established and funds
                                                                                                                                               budgeted.
24    Number of cases tried   2004                No                    No                    2908 cases in 8        Increased number of       Not fully determined
      under domestic                                                                          justice centers        domestic violence
      violence laws                                                                           during 2003            cases prosecuted




                                                                                                                                                                         27
Annex 1 - Justice program indicators from USAID/Guatemala's 2002 and 2004 Performance
Monitoring Plans, Democracy and Governance Strategic Objective and the current Contract
with Checchi, Inc.
No.         Indicator            In 2002, 2004 PMP        Baseline            2003                 2003              End-of-project             Current
                                   and/or Contract                      Targeted output/      Actual output/           target or            Achievement of
                                                                             result               result              benchmark             planned results

25    Number of cases            2004                No                 No                   3459 cases           Increased number of     Further data required.
      attended by Office for                                                                 attended in 12       crime victims receive
      Victim’s Assistance                                                                    Offices based in     judicial,
                                                                                             Justice Center       psychological and
                                                                                             Jurisdictions        social services by
                                                                                             during 2003.         the OAV
26    Sustainability of          2004                0                  No                   By Dec 2003, 13      All mediation centers   As of July 2004, 14
      mediation centers                                                                      centers were still   are functioning         centers functioning
                                                                                             funded by JP         without Justice         without Justice
                                                                                                                  Program funding         Program funding
27    Decrease or no             Contract            Quiché ( Nebaj     No increase          Quiché 7; Alta       No increase             Increase in Quiché,
      increase of lynching in                        and Santa Cruz)                         Verapaz 49;                                  Alta Verapaz and
      Nebaj, Santa Cruz,                             5; Alta Verapaz                         Huehuetenango                                Huehuetenango.
      Cobán and                                      (Cobán) 14;                             12                                           Decrease in Petén
      Huehuetenango over                             Huehuetenango                           Petén 2,                                     and Quetzaltenango
      a 2002 baseline                                8.                                      Quetzaltenango 0
                                                     Petén 7;
                                                     Quetzaltenango 4


28    MP reorganization          Contract            0 (2002)           Plan developed by    Plan advanced        Plan completed and      30% (estimated)
      plan developed and                                                March and            regarding            implemented
      implemented                                                       implemented by       Fiscalías de
                                                                        December             sección and de
                                                                                             Distrito and
                                                                                             Unidad de
                                                                                             conciliación
29    Sistema de turnos          Contract            0 (2002)           Sistema designed     Partial analysis     Plan implemented        50% (estimated)
      reviewed and                                                      by December 2003     and proposal for
      improved system                                                                        a plan
      designed
30    Performance                Contract            0 (2002)           System revamped      Partial proposal     System                  30% (estimated)
      appraisal system for                                              by July 2003                              implemented
      prosecutors and other
      key staff revamped
31    Evidence control and       Contract            2 (2002)           System in place in   Completed in         System in place in      Guatemala: 100%
      management systems                                                Guatemala City       September 2003       all Justice Centers     All Justice Centers by
      in place in Guatemala                                             (fiscalía                                 by September 2004       Dec 2003:
      City and in all Justice                                           mentropolitana) by                                                8= 53% (not including
      Centers                                                           July 2003                                                         Nebaj)
32    Judges, public             Contract            No                 All Justice          By Dec 2003,         All Justice operators   All Coordinating Units
      defenders and                                                     operators trained    personnel in 13      trained by Dec 2003     have received training
      prosecutors in target                                             by Dec 2003          justice centers                              on oral procedures
      locations are trained                                                                  had received
      in pre-trial oralization                                                               training in oral                             100%
      procedures                                                                             procedures: 86%
33    Oralization                Contract            0 (these are       No                   0                    4 pilots oralized       100% of 4 pilots
      procedures are piloted                         pilots)                                                                              currently conduct oral
      in four Guatemala City                                                                                                              procedures
      criminal courts
34    Oralization                Contract            6 (2002)           No                   11                   15 (not including       73%
      procedures are being                                                                                        Nebaj)
      used in all target
      locations
36    Curricular designs for     Contract            0 (2002)           No                   100%                 Designs completed       100%
      Years 4-5 are
      completed
37    Internship program is      Contract            Program            No                   Management of        Internship program      Porgram is
      sustainable without                            supported by                            these programs is    is sustainable          sustainable
      further USAID support                          USAID Justice                           done by Bufete       without further
                                                     Program.                                Popular Director     USAID support



                                                                                                                                                                   28
Annex 1 - Justice program indicators from USAID/Guatemala's 2002 and 2004 Performance
Monitoring Plans, Democracy and Governance Strategic Objective and the current Contract
with Checchi, Inc.
No.         Indicator          In 2002, 2004 PMP        Baseline            2003                 2003               End-of-project                Current
                                 and/or Contract                      Targeted output/      Actual output/            target or               Achievement of
                                                                           result               result               benchmark                planned results

                                                                                           %
38    Internship programs      Contract            0 (2002)           No                   No                    Internship programs       Limited progress to
      by December 2003 in                                                                                        in the law schools at     date.
      the law schools at                                                                                         Landivar, Mariano
      Landivar, Mariano                                                                                          Galvez, & Marroquin
      Galvez, & Marroquin
39    National Justice         Contract            No                                      The Sub-Commission of Professional Excellency, the Sub-
      Commission                                                                           Commission and the Sub-Commissions of Modernization have
      effectively serves the                                                               developed draft laws, workshops, research studies, etc. with the
      justice sector                                                                       support of the Justice Program and other donors.
40    Number of translators    Contract            No                 No                   A study was conducted to propose a system for accreditation of
      available Justice                                                                    translators. 38 translators provide services to the judiciary, Public
      Center institutions                                                                  Ministry, or Public Defense in 10 justice centers with significant
      requiring interpreters                                                               numbers of indigenous clientele.
41    Agreement on law         Contract            No accreditation   Technical Proposal   Technical         Plan is operational       50%
      school accreditation                         system exists      adopted by           Proposal
      plan; implementation                                            CNSAFJ Sub           completed
      plan operational                                                Commission




                                                                                                                                                                   29
